FAIRWORKPC |

EMPLOYMENT LAW

August 17, 2021
VIA ELECTRONIC FILING ONLY
Scott S. Harris, Clerk of the Court
Office of the Clerk
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
Re:

Gordon College, et al. v. Margaret DeWeese-Boyd, No. 21-145

Dear Mr. Harris:
Under Supreme Court Rule 37.2(a), Respondent Margaret DeWeese-Boyd hereby gives
blanket consent to the filing of amicus curiae briefs in this case, with respect to the pending
petition for writ of certiorari.
Sincerely,
/s/ Hillary Schwab
Hillary Schwab
Fair Work P.C.
cc: Counsel of record (via electronic mail)

617 - 6 07 - 3 26 0
W W W. FA I R W O RK L AW. C O M
19 2 S O U T H S T R E E T, S U I T E 45 0
B O S TO N , M A 0 2111

